                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 111040019                                                                    Page 1 of 1



          OIG opened this investigation based on information provided that an NSF employee' had
          falsified information on his Federal Employee Health Benefits form to obtain healthcare for his
          girlfriend and her child. A separate investigation conducted by the healthcare insurance
          compan/ determined that medical services totaling over $11,000 3 were illegally obtained for the
          ineligible individuals he had listed as his wife and child. The healthcare insurance company
          contacted the employee and requested repayment. A report of investigation was submitted to the
          supervisor and agency for administrative action. The employee was sent a notice proposing a 3
          day suspension for submission of a falsified document and then subsequently was issued a notice
          of decision stating that he was being suspended for 3 calendar days. 4

          OIG received a second allegation and uncovered that the same employee had been sleeping in his
          vehicle during work hours and had submitted false time and attendance records. This matter
          was referred to the employee's supervisor for action. 5 The employee' s supervisor verbally
          counseled the employee. 6

          No further investigative activity is warranted. This investigation is closed .




NSF OIG Form 2 ( I 1/02)
                    National Science Foundation • Office of the Inspector General
                      4201 Wtl.son Boulevard, Suite II-705, .Ailington, Virginia 22230


                                           JUL 3 0 2012

CONFIDENTIAL


TO:


FROM:


SUBJECT:       Investigation Report (OIG Case No. !11040019)

Please note: This report contains confidential personal information and it should be disclosed
only to individuals who must have knowledge of its contents to facilitate NSF's assessment and
resolution of this matter. Unauthorized disclosure may result in personal criminal liability under
the Privacy Act, 5 U.S.C. § 552a(i)(l ).


The attached Investigation Report concerns an NSF employee in the       Division who
made false statements on his Federal Employee Health Benefits form to obtain medical
healthcare services for ineligible individuals he listed as dependents.

We are referring this matter to you so that appropriate action can be taken by the
Foundation. Please advise me by August 31, 2012, of any actions taken regarding this report.

We also want to inform you that our office received an allegation against the same NSF
employee for time and attendance fraud and are referring the matter to you as well, under
separate cover.

Attachment

cc:
CONFIDENTIAL                                                                        CONFIDENTIAL




       National Science Foundation
        Office of Inspector General




                     Confidential
             Interim Investigation Report
               Case Number 111040019
                                July 30, 2012
                 This Confidential Report of Investigation is provided to you
                                  FOR OFFICIAL USE ONLY.
 It contains protected personal illformation, the unauthorized disclosure of which may result in
 personal cri:oiinalliability under the Privacy Act, 5 U.S.C. § 552a.. 'This report may be further
 disclosed within NSF only to individuals who must have knowledge of its .contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552a Please take appropriate precautions handling this confidential report pf investigation..

                                                                               NSF OIG Fonn 22b (u/o6)
CONFIDENTIAL                                                                   CONFIDENTIAL




 Please note: This report contains confidential personal information and it should be disclosed
 only to individuals who must have knowledge of its contents to facilitate NSF's assessment
 and resolution of this matter. Unauthorized disclosure may result in personal criminal
 liability under the Privacy Act, 5 U.S. C. § 552a(i)(l).



                                         SUMMARY

In November 2010, the Office of Inspector General (OIG) received a complaint that an NSF
employee 1 had allegedly made false statements in his Federal Employee Health Benefits (FEHB)
form when he improperly listed his girlfriend2 and her daughter3 as dependents ori his FEHB
form. 4 The NSF OIG ·Investigation, which included an admission from the employee,
determined that the employee had falsified.information on his Federal Employee Health Benefits
form to obtain medical healthcare services for his girlfriend and her daughter. The Health
Insurance company requested the employee remit full payment for the improper medical services
provided to the ineligible individuals.


                                     INVESTIGATION

Review of Personnel Records

A review of the Employee's Personnel fl.le found that he listed a wife and two childrens on his
Federal Employee Health Benefits (FEHB) form. His Federal Employees Retirement System
(FERS) Beneficiary form 6 listed a wife and son as beneficiaries. The Standard Form 1152,
Designation of Beneficiary for Unpaid Compensation of Deceased Civilian Employee?, listed a
wife as the beneficiary. The Federal Employee Group Life Insurance Program (FEGLI)
Designation of Beneficiary formS listed a son and wife as beneficiaries.

!twas noted that the employee's mother9, also an NSF employee, signed some of his forms as a
witness.10




                                               2
CONFIDENTIAL                                                                     CONFIDENTIAL


Interview of Employee 11

When the NSF employee was interviewed by NSF OIG he admitted that he had falsified
information on his FEHB forms. He explained that he started working for NSF in October 2005
and listed his girlfriend, and her daughter, on his health benefits form because he wanted to take
care of them, and intended on marrying his girlfriend. He said that he knew it was wrong, and
stated he wanted to pay back whatever he owes. The subject stated he finally married his
girlfriend in October 2010.

The NSF employee informed NSF OIG that his Health Insurance company 12 had apparently
received a similar complaint regarding the false information he had provided on his health
benefits form. He said he received a letter13 from the Health Insurance company asking him to
verify enrollment of the dependents he listed, and as a result, he sent them a copy of his marriage
certificatel4.


Other Relevant Information

NSF OIG contacted the Health Insurance company and was told that they had received a
complaint about no-eligible dependents listed on the NSF employee's health benefits form and
were investigating the matter. The Health Insurance company subsequently sent the NSF
employee a letter 15 requesting full paymentl6 for the improper medical services rendered to the
non-eligible dependents (his girlfriend and her daughter.)


Interview of Subject's Mother/An NSF Employee1 7

The NSF employee's mother, also an NSF employee, was interviewed to determine her
knowledge about her son's marital status at the time she signed several ·ofhis federal forms as a
witness. She explained that when she signed the forms, she was under the impression that her
son was married. She explained that her son had told her that he and his girlfriend had gone to
the Justice of the Peace and were married. She explained that she had gone shopping with his
son's girlfriend to help her pick out an engagement ring and wedding band. She said that she
saw his son's girlfriend wearing the rings and believed that they had married. She said that they
did not have a party or reception and that this was not unusual because she herself had been
married at the Justice of the Peace and did not have a party or reception. She said that sometime




                                                3
CONFIDENTIAL                                                                        CONFIDENTIAL


around 2006 or 2007 her son confessed to her that he and his girlfriend had not married. She
said that in October 2010 they finally did marry.


                                           VIOLATIONS

18 USC 1001 -False Statements

18 USC 287 - False Claims

Personnel Manual 14, Chapter 1, section 143 NSF Employee Conduct

Title 5.
Part 2635- Standards of Ethical Conduct for Employees of the Executive Branch
Subpart A - General Provisions

§ 2635.101 Basic obligation of public service.

(a) Public service is a public trust. Each employee has a responsibility to the United States
Government and its citizens to place loyalty to the Constitution, laws and ethical principles
above private gain. To ensure that every citizen can have complete confidence in the integrity of
the Federal Government, each employee shall respect and adhere to the principles of ethical
conduct set forth in this section, as well as the implementing standards contained in this part and
in supplemental agency regulations.

(b) General principles. The following general principles apply to every employee and may form
the basis for the standards contained in this part. Where a situation is not covered by the
standards set forth in this part, employees shall apply the principles set forth in this section in
determining whether their conduct is proper.

(1) Public service is a public trust, requiring employees to place loyalty to the Constitution, the
laws and ethical principles above private gain.

(12) Employees shall satisfy in good faith their obligations as citizens, including all just financial
obligations, especially those-such as Federal, State, or local taxes-that are imposed by law.




                                                  4
 CONFIDENTIAL                                                                    CONFIDENTIAL


                                             RECOMMENDATION

· All NSF employees are "expected to adhere to basic standards of integrity and decency."
  Further, "NSF employees must not engage in criminal, dishonest, immoral, or any other conduct
  prejudicial to the Government. NSF employees are responsible for knowing all statutes and any
  implementing regulations relating to their NSF and/or Federal positions." 18 The activities
  described above, raise questions about the employee's integrity, which is expected of someone in
  a public position. We recommend that NSF review this Investigation Report and determine what
  actions are appropriate to ensure the integrity and security ofNSF's programs and operations as
  well as the integrity and security of federal programs and benefits.




18
     Personnel Manual 14, Chapter 1, section 143.


                                                    5
                                     National Science Foundation
                                     4201 Wilson Boulevard
                                     Arlington, Virginia 22230



 Date:          October 11 , 2012

 To:


 From:


 Subject:       Notice of Proposed 3 Day Suspension for Submission of a Falsified Document

 This is a notice                                    duty without pay tor 3 calendar days from
 your position as a                                  due to the recent discovery that you
 submitted a falsified document to your health care provider.

 Background

 On July 30, 2012, the Office of the Inspector General (OIG) notified me that your were
 interviewed by Special Agents of the National Science Foundation, Office of Investigations,
 regarding an allegation that you had made false statements on your Federal Employee Health
 Benefits (FEHB) election form.

 As a result of this investigation, OIG determined that you had in fact knowingly supplied
 incorrect information on your FEHB form with the intent to obtain healthcare services for two
 individuals, who were not otherwise eligible to receive such benefits. The relevant facts are as
 follows:

 Charge - Submission of a Falsified Document

In November 2010, OIG received a complaint that you had improperly listed two non-eligible
individuals as your family members on your Health Benefits Election Form along with your son.
In particular, you submitted a Standard Form 2809, FEHB Health Benefits Election Form that
you signed and dated on October 27, 2005, on which you identified                   s your
spouse (as indicated by the relationship code "01 ") , and             as your stepchild (as
indicated by the relationship code "17").

 ... -- ............ .              w with Special Agents of the Office of Investigatio n s , - -
                 •n July 1, 2011, you confessed that when you began ~
~r 2005 (and contrary to what you indicated on your FEHB election form),
~as                    not your spouse, but rather your girlfriend, and that               was
her daughter and not your stepchild. Furthermore, you acknowledged that you had improperly
listed these individuals on your health insurance forms "in order to take care of them and their
health care needs," and had improperly done so for a period of five years, until such time that
you actually married                     n October 16, 2010.

By misrepresenting your relationship with
form, you were in essence gaining a ben             you were              The Standard Form
2809, FEHB Health Benefits Election Form provides clear instructions and guidelines regarding
family members who are eligible for coverage, which include spouses and children (including
                          26. However, at the time that you completed and submitted your form,
                              were not eligible to receive health benefits coverage as your family
             our              provider, Kaiser Foundation Health Plan of the Mid-Atlantic States,
Inc. (Health Plan), also found that you improperly listed                              as eligible
dependents on your FEHB form and held you financially responsible for the costs, totaling
$11,937.71, incurred tor medical services rendered to them during the five years they were not
otherwise entitled to such benefit.


Penalty Consideration

Your misconduct is serious and unacceptable for a Federal employee. As a Federal employee,
you are bound to abide by the Standards of Ethical Conduct for Employees of the Executive
Branch (5 CFR 2635), which states that each of us is responsible to ensure that every citizen
has complete confidence in the integrity of the Federal government. However, the
misrepresentations that you have made with respect to knowingly supplying incorrect
information on your Federal Health Benefits Election (FEHB) form with the intent to deceive your
health care provider do not adhere to the aforementioned standards, and I find them to be
troubling.

Your actions were intentional and deliberate. You admitted that you improperly listed your
girlfriend and her daughter on your FEHB form as your wife and daughter for a period of five
years, during which time they utilized health benefits to which they were not entitled. The fact
that this incident regards falsification of a government document over an extended period of
ti me raises serious concerns.

In addition, you were well aware of the severity of your actions in submitting false information on
your health benefits form. By signing your Health Benefits Election Form on October 27, 2005,
you acknowledged (as indicated in Part H of that form) that any intentionally false statement on
your application or willful misrepresentation relative thereto is a violation of the law.

However, your willingness to cooperate with the OIG investigators as well as your statement
that you, "wanted to pay back whatever money is owed" leads me to believe in your potential for
rehabilitation. Further, you fully accepted responsibi lity for any wrongdoing and have provided
evidence that you have worked with your health care provider to resolve this matter by sending
Kaiser supporting documents to verify enrollment of the members listed on your insurance plan.

In proposing th is action , I have considered your seven years of service with the National
Science Foundation , and I note that your record does not reflect any prior discipline having been
issued to you during this time. I have also considered that you were rated "fully successful" on
your last performance appraisal. Given these considerations, I find that the proposed penalty of
a three-day suspension will promote the efficiency of the service.


This notice is a proposal and not a decision. You have the right to reply to this proposed action,
orally and/or in writing, and furnish affidavits and evidence in support of your reply within
fourteen (14) calendar days after your recei of this letter. Your re      and      evidence must
be rovided to




                                                                                                   2
 you need additional time to prepare your reply, you must request an extension in writing before
 the expiration of the i4-day reply period from~xplai ning why you need more time.

 You have the right to be represented by an attorney or other individual of your choice provided
 such representation does not result in a conflict or an apparent conflict of interest or position.
 You must make all arrangements for and pay any costs associated with representation. Please
 designate your representative (or changes of representative), if any,~address , and
 phone number in a signed statement, and forward that statement to - -before the
 expiration of the 14-day reply period.

 You and your representative, if an NSF employee, will be allowed a reasonable amount of
 official time (normally, hours not days) to review the material relied upon to support the reason
 for the proposed action, and to prepare and present your oral and/or written reply.
 Arrangements for the use of official time for these purposes must be made with me in advance.

-            will review this proposal notice, and the material upon which it is based, and will
 consider any oral and/or written reply made by you or your representative before making a final
 decision. He will also consider any other affidavits or documentary evidence that you wish to
 provide. -            will issue his decision on this proposal, in writing, to you at the earliest
 practicable date, but no sooner than the expiration of the 14-calendar day reply period . Until
 such decision is rendered, you are expected to report for work as scheduled during the proposal
 notice period.

 If you are experiencing health or personal problems that may be affecting your job, I encourage
 you to contact the Employee Assistance Program (EAP) at i -800-869-0276 or via the internet at
 www.eapconsultants.com. The EAP has qualified counselors available 24 hours a day, 7 days
 a week who can provide expert guidance and counseling. The EAP is a confidential, free, and
 voluntary service. Your discussions with an EAP counselor will not be disclosed to anyone,
 including me, without your permission, and your participation will not be noted in your Official
 Personnel Folder (OPF).

 For a copy of the material relied on to support this action, or if you~arding
 your rights or the procedures used in this matter, you may contact~
 Employee Relations Speciali in the Division of Human Resource Management. iiiiiiill•
•lillmay      be reached at

 If you have any questions or wish to discuss this m




 Please sign to acknowledge receipt of this notice in the space provided below. Your signature
 does not indicate your agreement or disagreement with this action; it only represents receipt of
 this notice on the date signed. Your failure to sign will not void the content of this memorandum .


                                                                                                  3
4
              National Science Foundation
              4201 Wilson Boulevard, Arlington, Virginia 22230




Memorandum
Date:          December 19, 2012

To:



From:



Subject:       Notice of Decision on Proposed 3-Day Suspension


On October 11, 2012, your supervisor,                   proposed to sus        you from
duty and pay status from your position                                      for three (3)
calendar days for submitting a falsified document to your health care provider. l was
designated as the deciding official on that proposal.

You were advised of your rights to representation and to reply orally and/or in writing to
me within fourteen {14) calendar days of your receipt of the proposal. You elected not to
respond in writing . However, on Friday, November 2, 2012, I gave you the opportunity
to respond orally. In your reply, you stated that you knew what you were doing was
officially wrong .

r considered your assertion that you misrepresented your relationship with your girlfriend
and her daughter as family members on your Federal Employee Health Benefits form in
order to take care of their health care needs. However, improperly listing individuals on
a Federal Health Benefits election form with the intent to improperly receive health care
benefrts from an insurance company that you would not otherwise have been entitled to
is a serious offense irrespective of your reason for doing so.          ·

 I have also carefully considered the charges contained in the proposal notice as well as
 the materials relied upon to support the proposal. In doing so, I have determined that
 the charge that you submitted a falsified document to your health care provider specified
 in the Notice of Proposed Suspension is sustained. In particular, preponderant evidence
 in addition to your own admission during your July 1, 2011, interview with the Office of
 the Inspector General {OIG) demonstrates that you improperly and intentionally listed
 your girlfriend and her daughter as your wife and stepdaughter on your Health Benefits
 Election Form dated October 27, 2005. You were well aware that both individuals were
 ineligible for Federal Health Benefits at the time and the only explanation you offered for
 your conduct during your OIG interview was that you had done so, "in order to take care
 of them [your then girlfriend and her daughter] and their health care needs.; Regardless
  of the reason, it is completely unacceptable for you as a Federal Employee to defraud a
  Federal Health Care provider, as you are tasked with upholding the public's trust and
  acting with integrity.
In determining whether the proposed penalty is appropriate, I considered the following :

I considered the nature and seriousness of the conduct demonstrated in this case. By
knowingly misrepresenting the familial relationship between you and your girlfriend as
we~ as her daughter, you failed to exhibit the characteristics expected for a Federal
employee. Furthermore, knowingly providing false information on a Federal Health
Employee Benefits Form with the intent to gain a benefit to which you would have
otherwise not have been entitled, demonstrates a lack of honesty and integrity on your
part. Your actions also left me with the impression that you believed the reward for your
misconduct at the time outweighed the risk. This is especially troubling considering that
it was OIG that brought this matter to my attention rather than you . I would be remiss in
my duties if I did not consider the fact that this incident may have very well been
overlooked had the OIG not received an allegation from outside of the agency that you
had falsified information on your federal employee health benefits form more than seven
years ago. Furthermore, a letter sent to you by Kaiser Permanente dated November 30,
2011, listed the costs paid for services rendered to your girlfriend and her daughter for
over that five year period as totaling $11 ,937.71 . This is not an insignificant amount.

I also considered the fact that you were well aware of the familial relationships that were
eligible to receive Federal Health benefits. The Health Benefits Election form that you
completed in October 2007 clearly defined the individuals and relationships that were
eligible for this benefit. Despite this clear instruction, you submitted false information on
the election form.

In addition to the above, I considered several mitigating factors in determining the
reasonableness of the proposed three (3) calendar day suspension. In particular, I
considered your 10 years of Federal service, including your nearly seven years of
service with NSF. I also considered that you received acceptable performance ratings
for the past three performance cycles, and that your record does not reflect any prior
disciplinary actions. However, in balancing the seriousness of your misconduct, I do not
find these factors sufficient to lessen the proposed penalty.

After giving serious consideration of the factors discussed above, I find no alternative
sanction is appropriate given the severe nature of your misconduct. Therefore, I have
decided to uphold the penalty as proposed. You will be suspended from duty and pay
for a period of three (3) calendar days commencing January 10. You are to return to
work on January 14 at your normal start time.

This action is being taken to stress upon you the need for more responsible behavior on
your part. You are advised that any repetition of this misconduct or other misconduct
may result in more severe disciplinary action, up to and including your removal from
Federal service.

You have the right to grieve this decision under the provisions of the Collective
Bargaining Agreement. In accordance with Article XVI of the Collective Bargaining
Agreement, you may present a grievance at any time after receipt of this decision. but no
later than 25 calendar days after receipt. Your grievance must begin as an informal
grievance and may be presented orally or in writing.


                                              2
         ..       _ _ ____ _ _ _ _ _ _________ ___________________________
              ,..._                                                                   ---- ---- -~-- ---- ---- --·   ......   -------·   -·




 /
     -
jl



                           have any questions regarding your rights in
                                   E~ploLee Relations Specialist, in the
                                  at                  You may also contact AFGE Local 3403 for
                      assistance.




                      Please sign to acknowledge receipt of this notice in the space provided below. Your
                      signature does not indicate your agreement or disagreement with this action; it only
                      represents receipt of this notice on the date signed. Your failure to sign will not void the
                      content of this memorandum.

                      Acknowledgement of Receipt:




                                                                     3
                    National Science Foundation • Office of the Inspector General
                           4201 Wll.son Boulevard, .Arlington, Vttginia 22230


                                           JUL 3 0 2012

Confidential


         To:


     From:


    Subject:



Please note: This memorandum contains confidential personal information and· it should be
disclosed only to individuals who must have knowledge of its contents to address this matter.


        This memorandum~an NSF employee under your supervision. Our office
received information that -            may be sleeping in his vehicle during work hours and
falsifying his actual work hours/time.

       On March 6, 2012, OIG investigators observed               exit his parked vehicle on the
P4level of the parking garage in Stafford I at approximately 8:35AM (See Tab 1, photos of
employee's vehicle). His ITAS sign-in time indicates he signed onto the computer at 6:45AM
and was to begin working at 7:00AM. His security access records show he swiped and entered
the P4 South Elevator turnstile at 6:29AM then again later swiped/entered the same turnstile at
8:29AM.1

        We reviewed ~AS records/timecards and security access records for the
period December 2, 2011 through March 23, 2012 (attached ay Tabs 2 and 3). During this time
period,              ITAS records iri.dicate that his official sign-~ically at 7:00am.
On at least 47 occasions during the period reviewed (see Tab 4), -         security access
time usage was consistent with that we observed on March 6, 2012: he entered Stafford I from

1The OIG Agent's vehicle clock time appears to have been about six minutes ahead of the
security access time clock time.
the P4 parking garage at the South Elevator Turnstile at times before 7:00AM (usually between
6:22AM and 6:54AM) and then entered again through the same entrance an hour or two later. 2
Most of the entries noted were from parking level 4 through the turnstile to the south elevator
~4S Elevator Turnstile). We note that the security access time records indicate tha. . .
-       appears to frequently re-enter through the P4 South turnstile entrance throughout various
other times during the day on various dates, we however do not have any additional information
regarding this pattern. We also note that            earned credit hours during the time period
reviewed.

       We are referring this matter to you for your management actiori. Please let me know if
you have any questions, and what action your office takes regarding this matter.



Attachment:




cc:




2
  Security access records show employee entrances to the building using the government ID
card; they do not show exits.


                                               2
Good Afternoon,. .

In re~ponse to your request for closure, I spoke wit-egarding this issue, even though this had taken place prior to
my arrival. He explained to me that he suffers from severe asthma.

He also stated to me that when he takes the medication it makes him jumpy and then he becomes real tired so he would
go to his car and sleep. I informed him that regardless as to the severity of the situation when it comes to issues such as
this, he has to go to the nurse. He can not sleep in his car.

He recognized the error and ensured me that it would not happen again.

v/r




National Science Foundation
4201 Wilson Boulevard

Arlington, VA 22230
